NO. 20-6972

In the
Supreme Court of the United States
MARK ALLEN JENKINS,
Petitioner,
V.

JEFFERSON S. DUNN, COMMISSIONER,
ALABAMA DEPARTMENT OF CORRECTIONS,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE
ELEVENTH CIRCUIT
Brief of Amici Curiae Disability Organizations
in Support of Petitioner
MARK R. YOHALEM
Munger, Tolles & Olson LLP
350 South Grand Avenue
50th Floor
Los Angeles, CA 90071
(213) 683-9100
Mark.Yohalem@mto.com

BRENDAN B. GANTS
Counsel of Record
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, D.C. 20001
(202) 220-1100
Brendan.Gants@mto.com

Counsel for Amici Curiae

i
TABLE OF CONTENTS
Page
INTEREST OF AMICI CURIAE ................................. 1
SUMMARY OF ARGUMENT ..................................... 6
ARGUMENT ................................................................ 7
I.

Applicable Legal and Scientific
Principles Support the Importance of
Evaluating Atkins Claims on a Record
Developed for That Purpose. ............................ 7

II.

The Eleventh Circuit’s Application of its
Outlier Approach to Habeas Review
Deprived Jenkins of the Opportunity to
Develop an Appropriate Record in
Support of His Atkins Claim........................... 10
A.

The State Court Record, Despite
its Limitations, Contains
Substantial Evidence that
Jenkins May Be a Person with
Intellectual Disability. ......................... 11

B.

The Last Reasoned State-Court
Decision Denying Jenkins’s Claim
is Indefensible....................................... 13

C.

The Eleventh Circuit’s Improperly
Substituted Rationale for Denying
Jenkins’s Claim Also Fails,
Including Because the Court
Disregarded the Importance of an
Appropriate Evidentiary Record. ......... 16

CONCLUSION .......................................................... 21

ii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Atkins v. Virginia,
536 U.S. 304 (2002) .......................................passim
Bobby v. Bies,
556 U.S. 825 (2009) .......................................... 8, 13
Brumfield v. Cain,
576 U.S. 305 (2015) .......................................passim
Hall v. Florida,
572 U.S. 701 (2014) ................................ 8, 9, 15, 18
Holladay v. Allen,
555 F.3d 1346 (11th Cir. 2009) ............................ 18
Kipp v. Davis,
971 F.3d 939 (9th Cir. 2020) ................................ 14
Morris v. Dretke,
413 F.3d 484 (5th Cir. 2005) .................................. 8
Roper v. Simmons,
543 U.S. 551 (2005) .............................................. 15
Van Tran v. Colson,
764 F.3d 594 (6th Cir. 2014) ................................ 19
Williams v. Mitchell,
792 F.3d 606 (6th Cir. 2015) ................................ 14

iii
TABLE OF AUTHORITIES
(Continued)
Page(s)
Wilson v. Sellers,
138 S. Ct. 1188 (2018) ...................................... 7, 16
Ybarra v. Filson,
869 F.3d 1016 (9th Cir. 2017) .............................. 12
FEDERAL STATUTES
28 U.S.C. § 2254(d) ...................................................... 6
OTHER AUTHORITIES
AAIDD, Intellectual Disability:
Definition, Classification, and
Systems of Supports (11th ed. 2010) .............passim
AAIDD, User’s Guide to Accompany the
11th Edition of Intellectual
Disability: Definition, Classification,
and Systems of Supports (2012) ........................... 18
American Psychiatric Association,
Diagnostic and Statistical Manual of
Mental Disorders (5th ed. 2013) ...................passim

1
INTEREST OF AMICI CURIAE
Amici are nonprofit organizations that represent,
provide direct services to, and advocate for the rights
of people with intellectual and developmental
disabilities. 1 They share a vital interest in ensuring
that all individuals with intellectual disability receive
the protections and supports to which they are
entitled by law—including, where appropriate, a
hearing and the opportunity to present evidence—
and that courts employ scientific principles for the
diagnosis of intellectual disability. Amici take no
position
as
organizations
regarding
capital
punishment broadly, but respectfully submit that
respecting those legal protections and adhering to
those principles is no less important in the context of
capital punishment than in any other context.
The Alabama Disabilities Advocacy Program
(“ADAP”) is part of the National Disability Rights
Network, the nonprofit membership organization for
the federally mandated Protection and Advocacy
(“P&A”) system. The P&A system constitutes the
nation’s largest provider of legally based advocacy
services for persons with disabilities. As Alabama’s
only statewide, cross-disability, comprehensive legal
advocacy organization, ADAP protects and promotes
the civil rights of Alabamians with physical,
cognitive, and mental health disabilities.
Pursuant to Supreme Court Rule 37.6, counsel for amici certify
that no counsel for any party authored this brief in whole or in
part, and no party or counsel for a party, or any other person
other than amici or their counsel, made a monetary contribution
intended to fund the preparation or submission of this brief.
Counsel for all parties received timely notice of amici’s intent to
file this brief, and counsel for all parties consented in writing to
its filing.
1

2
Access Living was founded in 1980 and is one of
the nation’s largest, most experienced, and most
prominent disability rights organizations governed
and staffed by people with disabilities. As a Center
for Independent Living (“CIL”) established under the
federal
Rehabilitation
Act,
Access
Living’s
statutorily-mandated mission includes advocacy to
ensure the independence, integration, and full
citizenship of people with disabilities. Access Living
envisions a world free from barriers and
discrimination where disability is respected as a
natural part of the human experience, and people
with disabilities are included and valued.
The
arguments in this brief support that mission, and
protect the rights of people with disabilities.
The Autistic Self Advocacy Network (“ASAN”)
is a national, private, nonprofit organization, run by
and for autistic individuals. ASAN provides public
education and promotes public policies that benefit
autistic individuals and others with developmental or
other disabilities. ASAN’s advocacy activities include
combating stigma, discrimination, and violence
against autistic people and others with disabilities;
promoting access to health care and long-term
supports in integrated community settings; and
educating the public about the access needs of
autistic people. ASAN takes a strong interest in
cases that affect the rights of autistic individuals and
others with disabilities, including within the criminal
legal system.
The Civil Rights Education and Enforcement
Center (“CREEC”) is a national nonprofit
membership organization whose mission is to defend
human and civil rights secured by law, including laws
prohibiting discrimination on the basis of disability.

3
CREEC’s efforts to defend human and civil rights
extend to all walks of life, including ensuring that
people with disabilities have access to all programs,
services, and benefits of public entities, as well as
provision of necessary procedural and substantive
safeguards in civil and criminal proceedings.
The Coelho Center for Disability Law, Policy
and Innovation (the “Coelho Center”) was
founded in 2018 by the Honorable Tony Coelho,
primary author of the Americans with Disabilities
Act. Housed at Loyola Law School in Los Angeles,
the Coelho Center collaborates with the disability
community to cultivate leadership and advocate
innovative approaches to advance the lives of people
with disabilities. The Coelho Center brings together
thought leaders, advocates, and policy makers to craft
agendas that center disabled voices.
Disability Rights Advocates (“DRA”) is a
nonprofit public interest center that specializes in
high-impact civil rights litigation and other advocacy
on behalf of persons with all types of disabilities
throughout the United States. DRA works to end
discrimination in all public services, including in the
courts.
The Disability Rights Education & Defense
Fund (“DREDF”) is a national nonprofit law and
policy center dedicated to advancing and protecting
the civil and human rights of people with disabilities.
Founded in 1979 by people with disabilities and
parents of children with disabilities, DREDF remains
board- and staff-led by members of the communities
for whom we advocate. DREDF pursues its mission
through education, advocacy and law reform efforts,
and is nationally recognized for its expertise in the

4
interpretation of federal civil rights laws protecting
persons with disabilities.
The Disability Rights Legal Center (“DRLC”)
is a nonprofit legal organization founded in 1975 to
represent and serve people with disabilities. DRLC
assists people with disabilities in attaining the
benefits, protections, and equal opportunities
guaranteed to them under the Rehabilitation Act of
1973, the Americans with Disabilities Act, the
Individuals with Disabilities Education Act, and
other state and federal laws. Its mission is to
champion the rights of people with disabilities
through education, advocacy, and litigation. DRLC
supports fairness in the criminal justice system to
ensure people with disabilities are not discriminated
against nor improperly punished or incarcerated for
having a disability.
Disability Rights Maryland (“DRM”) is a
nonprofit legal services organization mandated to
advance the civil rights of people with disabilities.
Since 1975, DRM has served as the federally
mandated P&A for the state of Maryland. One of
DRM’s service priorities is to monitor and advocate
for the provision of appropriate care of individuals in
prison facilities. DRM has issued public reports
criticizing the under-identification of persons with
disabilities in our carceral system. DRM frequently
advocates for proper evaluation of youth and adults
who may have intellectual or developmental
disabilities, through provision of technical assistance
or representation that urges the need to obtain
neuropsychological or specialty evaluations to
establish eligibility for services based on their
intellectual or developmental disabilities. DRM has
an interest in this case and in ensuring

5
comprehensive assessments and identification of
persons with disabilities so as to fully identify those
with disabilities and to protect their interests.
Disability Rights North Carolina (“DRNC”) is
North Carolina’s designated P&A. As such, DRNC is
authorized by federal law to protect and advocate for
the rights of individuals with disabilities. DRNC’s
interest in the present case is to advocate for the
legal rights and interests of North Carolinians with
intellectual disabilities to receive fair and humane
treatment in the criminal justice system.
The National Disability Rights Network
(“NDRN”) is the non-profit membership organization
for the federally mandated Protection and Advocacy
(“P&A”) and Client Assistance Program (“CAP”)
agencies for individuals with disabilities. The P&A
and CAP agencies were established by the United
States Congress to protect the rights of people with
disabilities and their families through legal support,
advocacy, referral, and education. There are P&As
and CAPs in all 50 states, the District of Columbia,
Puerto Rico, and the U.S. Territories (American
Samoa, Guam, Northern Mariana Islands, and the
US Virgin Islands), and there is a P&A and CAP
affiliated with the Native American Consortium
which includes the Hopi, Navajo, and San Juan
Southern Paiute Nations in the Four Corners region
of the Southwest. Collectively, the P&A and CAP
agencies are the largest provider of legally based
advocacy services to people with disabilities in the
United States.

6
SUMMARY OF ARGUMENT
As this Court has recognized, a death row inmate
with a claim under Atkins v. Virginia, 536 U.S. 304
(2002), should have the opportunity to develop an
appropriate record in support of that claim when
there is evidence of impairment that could be
attributable to intellectual disability. That commonsense rule is grounded in principles of due process
and fundamental fairness, taking into account the
way Atkins fundamentally changed the legal context
of intellectual-disability evidence in capital cases. It
also is grounded in clinical standards regarding the
diagnosis of intellectual disability, which emphasize
the importance of thorough evidence-gathering and
clinical judgment.
The Eleventh Circuit’s application of its outlier
approach to habeas in this case deprived Mark Allen
Jenkins of his opportunity to develop such a record.
The available record in this case—although
incomplete and deficient, as it was developed in a
pre-Atkins context—already includes significant
evidence that Jenkins may be a person with
intellectual disability. Yet in the last reasoned statecourt decision on Jenkins’s Atkins claim, the Alabama
Court of Criminal Appeals (“CCA”) unreasonably
disregarded that evidence in a cursory analysis that
relied on stereotypes to preclude the possibility of
Atkins relief.
The CCA’s reasoning cannot be
reconciled with the core holding of Atkins.
Consequently, Jenkins’s habeas petition satisfied the
requirements of 28 U.S.C. § 2254(d), and he is
entitled at least to an evidentiary hearing.
Rather than limiting its review to the specific
reasons given by the CCA for denying Jenkins’s

7
claim, however, the Eleventh Circuit created its own
rationale for that result. In so doing, the Eleventh
Circuit impermissibly bypassed the need to confront
the CCA’s indefensible reasoning, in contravention of
Wilson v. Sellers, 138 S. Ct. 1188, 1192 (2018), which
other circuits have followed faithfully. Furthermore,
the Eleventh Circuit’s own reasoning contradicted
this Court’s precedents incorporating relevant clinical
guidance. The Eleventh Circuit’s reasoning also
disregarded the central importance of an appropriate
evidentiary record in Atkins cases, even as the court
denied Jenkins the opportunity he has long sought to
build such a record.
Absent this Court’s review, Mark Allen Jenkins
may be executed without ever having the opportunity
to develop an appropriate evidentiary record in
support of his intellectual-disability claim. This
Court’s review of the Eleventh Circuit’s outlier
approach to habeas review is necessary, among other
reasons, to avert the serious risk that a person with
intellectual disability may be executed.
ARGUMENT
I.

Applicable Legal and Scientific Principles
Support the Importance of Evaluating
Atkins Claims on a Record Developed for
That Purpose.

The Eighth Amendment prohibits the execution of
any person with intellectual disability. See Atkins,
536 U.S. at 321. The basic definition of intellectual
disability
requires
(1)
intellectual-functioning
deficits, generally indicated by an IQ score
approximately two standard deviations below the
mean, (2) adaptive deficits, and (3) onset of those
deficits during the developmental period.
See

8
American Psychiatric Association, Diagnostic and
Statistical Manual of Mental Disorders 33, 37 (5th ed.
2013) (“DSM-5”); AAIDD, Intellectual Disability:
Definition, Classification, and Systems of Supports 1,
31 (11th ed. 2010) (“AAIDD Manual”). Clinical
definitions of intellectual disability “were a
fundamental premise of Atkins,” which was informed
by “the diagnostic criteria employed by psychiatric
professionals.” Hall v. Florida, 572 U.S. 701, 720-21
(2014) (citing Atkins, 536 U.S. at 308-09 nn.3, 5).
This Court has emphasized repeatedly the
importance of adjudicating death row inmates’
intellectual-disability claims based on a record
developed after Atkins for that purpose. See, e.g.,
Brumfield v. Cain, 576 U.S. 305, 321-22 (2015)
(petitioner’s argument for an evidentiary hearing was
supported by the fact that he “had not yet had the
opportunity to develop the record for the purpose of
proving an intellectual disability claim”); Bobby v.
Bies, 556 U.S. 825, 836 (2009) (recognizing that prior
to Atkins, it often was in the interest of prosecutors
rather than the defense to use evidence of intellectual
disability). Proper examination of any intellectualdisability claim requires informed expert analysis
because, as this Court recognized in Atkins,
intellectual disability is ultimately a “clinical”
diagnosis. 536 U.S. at 308 n.3, 317 n.22; see also
Morris v. Dretke, 413 F.3d 484, 500 (5th Cir. 2005)
(Higginbotham, J., concurring) (explaining that
inmate had diligently developed the factual basis for
his Atkins claim where he “diligently sought to gather
evidence of mental retardation during the time period

9
after Atkins was decided” (emphasis added)). 2 As a
matter of due process and fundamental fairness,
Atkins claimants should have an opportunity to
develop an appropriate record.
The importance of that opportunity is also
grounded in, and confirmed by, the clinical literature
that was fundamental to Atkins.
The relevant
clinical standards emphasize the importance of
gathering information from a variety of sources,
including a thorough history, and evaluating that
information using clinical judgment. See DSM-5 at
37; AAIDD Manual at 94-96, 99-102.
A court
purporting to evaluate an intellectual-disability claim
based on a pre-Atkins record not developed for that
purpose likely will lack important information. See,
e.g., AAIDD Manual at 100 (“A valid diagnosis of ID
is based on multiple sources of information that
include a thorough history (social, medical,
educational),
standardized
assessments
of
intellectual functioning and adaptive behavior, and
possibly additional assessments or data relevant to
the diagnosis.”). Among other things, the court will
lack reliable expert testimony, since an expert
testifying regarding an intellectual-disability claim
must gather and analyze the relevant information
with the applicable standard in mind. See DSM-5 at
37 (for a valid diagnostic inquiry, the relevant
information “must be interpreted using clinical
judgment”); AAIDD Manual at 90-91 (a clinician’s
effectiveness depends on “his or her systematic and
reasoned approach to understanding the question at
hand” and “using a sequential and logical approach to
2
This brief uses the term “intellectual disability” in place of
“mental retardation” except when quoting sources. See Hall,
572 U.S. at 704-05.

10
data collection” and synthesis (emphasis added)).
Adjudications made on the basis of a deficient record
are unreliable. That is why, post-Atkins, individuals
must be given the opportunity to develop a record
appropriate to adjudicating an Atkins claim, at least
where the existing pre-Atkins record reveals evidence
of impairment that could be attributable to
intellectual disability.
II.

The Eleventh Circuit’s Application of its
Outlier Approach to Habeas Review
Deprived Jenkins of the Opportunity to
Develop an Appropriate Record in
Support of His Atkins Claim.

Even though Mark Allen Jenkins has never had an
opportunity to develop an appropriate evidentiary
record in support of his intellectual-disability claim,
the available record—developed before Atkins—
nevertheless contains significant evidence supporting
the possibility that he has intellectual disability. The
CCA’s decision denying Jenkins’s Atkins claim
despite that evidence (which the CCA largely
ignored) was unreasonable, and for that reason the
Eleventh Circuit should have concluded that Jenkins
was entitled at least to an evidentiary hearing. The
Eleventh Circuit’s decision instead to bypass the
state court’s reasoning and deny Jenkins’s claim
based on its own justification—which likewise runs
afoul of this Court’s precedents and disregards the
importance of an appropriate evidentiary record—
amply warrants this Court’s review.

11
A.

The State Court Record, Despite its
Limitations, Contains Substantial
Evidence that Jenkins May Be a
Person with Intellectual Disability.

The state court record in Jenkins’s case—such as it
is—provides a substantial basis to conclude that he
may be a person with intellectual disability, and
offers no justification for precluding such a diagnosis.
Given that the evidence was developed before Atkins,
it provides “even greater cause to believe he might
prove such a claim in a full evidentiary hearing.”
Brumfield, 576 U.S. at 321. Under this Court’s
jurisprudence, the CCA was required to consider the
existing evidence in that context, and was ultimately
required to provide Jenkins the opportunity to
develop it at an appropriate post-Atkins evidentiary
hearing.
The evidence already in the record supporting
Jenkins’s intellectual-disability claim is compelling.
As to Jenkins’s intellectual functioning, the State’s
expert, Dr. Kirkland, testified that Jenkins’s IQ score
was “two standard deviations” below the mean,
Vol.22 TR.670-71, 3 which would satisfy the
intellectual-functioning criterion of the diagnostic
framework, see DSM-5 at 37. Jenkins also scored in
the bottom one percent of all test-takers on a
neuropsychological
test
measuring
cognitive
flexibility and problem solving. See Vol.22 TR.66970.

This brief cites the state court record using the volume and tab
numbers in Respondent’s Habeas Corpus Checklist, filed before
the district court, consistent with the citation form used in
Petitioner’s submission to this Court. See Pet. 6 n.3.

3

12
The record also reveals significant evidence of
adaptive deficits. At nearly 30 years old, Jenkins still
operated at a third-grade level in reading, spelling,
and arithmetic, results that were consistent with
Jenkins’s performance in school. See Vol.22 TR.641,
669. Both in childhood and as an adult, Jenkins
demonstrated gullibility that led to his being
manipulated and taken advantage of by others. See
Vol.19, Tab #R-48 at TR.60-61; Vol.20 TR.124; Vol.22
TR.483; see also Ybarra v. Filson, 869 F.3d 1016,
1026-27 (9th Cir. 2017) (concluding that district court
erred by overlooking state court’s statements
discounting defendant’s “gullibility” and inability to
avoid victimization, which authoritative clinical
guidelines list specifically as “examples of limited
social adaptive skills”); DSM-5 at 34, 38 (noting that
“[g]ullibility is often a feature” of intellectual
disability, and places the person “at risk of being
manipulated by others”); accord AAIDD Manual at
44. As a child, Jenkins had significantly limited
interpersonal skills and no friends. See Vol. 20
TR.108-10. As an adult, he has struggled to maintain
employment even in unskilled jobs, to maintain
adequate housing, and to manage basic self-care
tasks like hygiene. See, e.g., Vol.20, Tab #R-48 at
TR.151, 200-01; Vol.22 TR.485-86; Vol.29 TR.1255. 4
The available evidence in this case also indicates
the presence of many risk factors for intellectual
disability. Those risk factors include, for example,
child abuse, neglect, domestic violence, and social
deprivation, all of which Jenkins experienced to a
horrifying degree. See AAIDD Manual at 60; Pet.
4
This evidence also indicates that the intellectual and adaptive
deficits present in Jenkins’s life first manifested during the
developmental period, a question that the CCA did not reach.

13
App. 12a-14a. Other risk factors present here include
maternal drug and alcohol abuse in the prenatal
period, premature birth, parental rejection of
caretaking, and malnutrition. See AAIDD Manual at
60; Pet. App. 12a-14a. Jenkins also was at risk of a
traumatic brain injury or other brain damage during
the developmental period due to frequent beatings
with various implements by his stepfather. See
AAIDD Manual at 60; Pet. App. 12a-13a. These risk
factors provide additional support for Jenkins’s
Atkins claim.
The existing record contains all this evidence of
intellectual disability despite Jenkins never having
been provided the opportunity of a hearing to develop
an intellectual-disability claim. There is no reason to
believe that, by sheer chance, all evidence that could
support such a claim is in the record. Indeed, at the
time this evidence came in, there was no Atkins claim
to be made, and such evidence could instead be used
against Jenkins as evidence of future dangerousness.
See Atkins, 536 U.S. at 321; Bies, 556 U.S. at 836.
That, under such circumstances, the record
nevertheless contains compelling evidence supporting
an intellectual-disability claim gives “even greater
cause to believe [Jenkins] might prove such a claim in
a full evidentiary hearing.” Brumfield, 576 U.S. at
321. At the very least, Jenkins should be given such
a hearing and an opportunity to develop evidence on
his Atkins claim.
B.

The Last Reasoned State-Court
Decision Denying Jenkins’s Claim is
Indefensible.

The CCA’s decision in this case unreasonably
ignored evidence supportive of intellectual disability
and, in a cursory discussion, relied on harmful and

14
inaccurate stereotypes to reject Jenkins’s Atkins
claim. That reasoning is indefensible.
The CCA’s decision ignored virtually all of the
evidence supporting Jenkins’s intellectual-disability
claim, and failed to even acknowledge that the
available record was developed before this Court’s
decision in Atkins, and thus before Jenkins had
reason to develop evidence to support an Atkins
claim. The CCA’s disregard of the evidence and its
context was unreasonable, as precedent from this
Court and many circuits confirms.
See, e.g.,
Brumfield, 576 U.S. at 317-22; Kipp v. Davis, 971
F.3d 939, 954 (9th Cir. 2020) (recognizing that “[i]n
Brumfield, the Supreme Court also attributed the
state court’s erroneous failure to hold an evidentiary
hearing on petitioner’s intellectual disability, in part,
to the fact that the court overlooked evidence in the
record about issues with the petitioner’s adaptive
functioning”); Williams v. Mitchell, 792 F.3d 606, 624
(6th Cir. 2015) (“[C]learly established Federal law . . .
requires courts to consider all relevant evidence
bearing on an individual’s intellectual functioning
and to apply clinical principles of intellectual
disability adopted by federal precedent.”).
Moreover, the CCA’s analysis of Jenkins’s adaptive
functioning consisted of a single sentence indicating
that he must not have significant deficits in adaptive
behavior because he was able to “maintain[]
relationships with other individuals” and sometimes
had a job. Pet. App. 494a. But the idea that a person
who can do those things must not be a person with
intellectual disability is a harmful, offensive, and
inaccurate stereotype with no basis in law or science.
Many people with intellectual disability are capable
of maintaining relationships with other individuals

15
and being employed. See, e.g., DSM-5 at 34 (“In
adulthood, competitive employment is often seen in
jobs that do not emphasize conceptual skills.”);
AAIDD Manual at 151 (rejecting the “incorrect
stereotypes” that people with intellectual disability
“never have friends, jobs, spouses, or children”). The
fact that Jenkins had a string of low-skill, meniallabor jobs—jobs he held for only a few months each,
during which time employers took advantage of
him—in no way precludes a diagnosis of intellectual
disability. The state court’s analysis contravened the
core holding of Atkins that the Eighth Amendment
bars execution for the entire category of persons with
intellectual disability. See Atkins, 536 U.S. at 321;
see also Roper v. Simmons, 543 U.S. 551, 563 (2005).
The CCA’s reasons for denying Jenkins an
evidentiary hearing or other relief on his Atkins claim
were plainly unreasonable and cannot withstand
even deferential scrutiny. In seeking an evidentiary
hearing, Jenkins “was not obligated to show that he
was intellectually disabled, or even that he would
likely be able to prove as much.” Brumfield, 576 U.S.
at 320.
To deny an Atkins claim without an
evidentiary hearing under these circumstances
“creates an unacceptable risk that persons with
intellectual disability will be executed.” Hall, 572
U.S. at 704.

16
C.

The Eleventh Circuit’s Improperly
Substituted Rationale for Denying
Jenkins’s Claim Also Fails,
Including Because the Court
Disregarded the Importance of an
Appropriate Evidentiary Record.

Rather than recognize that the state court’s
decision was unreasonable and that Jenkins
consequently was entitled to at least an evidentiary
hearing, the Eleventh Circuit crafted a new rationale
to try to justify the result the state court reached.
Amici agree with Petitioner’s submission to this
Court regarding the conflict between the Eleventh
Circuit’s outlier approach to habeas review and this
Court’s decision in Wilson v. Sellers, and respectfully
submit that the Court should grant certiorari to
review this important issue. Amici also emphasize
that the Eleventh Circuit’s new rationale itself
contravened relevant legal and clinical guidance
regarding intellectual-disability claims—including by
disregarding the context in which the evidentiary
record in this case was developed.
In denying Jenkins what would have been his first
opportunity to develop an appropriate record in
support of his Atkins claim, the Eleventh Circuit
improperly relied on a purported absence of Atkinsclaim-specific evidence in the pre-Atkins record. In
particular,
the
court
deemed
it
“[m]ost
fundamental[]” that neither of the experts who
testified at Jenkins’s Rule 32 hearing—half a decade
before Atkins—gave a clinical opinion that Jenkins is
a person with intellectual disability; the court also
treated as “tremendously significant” the absence of
other such clinical assessments in the record. Pet.

17
App. 28a-29a. But again, prior to Atkins, evidence of
intellectual disability was (at best) “a two-edged
sword” that could be treated as evidence of the
aggravating factor of future dangerousness, thereby
making a death sentence more likely. Atkins, 536
U.S. at 321. Indeed, the categorical rule this Court
adopted in Atkins was intended, in part, to avoid
forcing defendants in capital cases to gamble with
their lives when presenting evidence of intellectual
disability. As the dissent below recognized, it was
unreasonable to penalize Jenkins for deficits in a
record developed during the hazardous pre-Atkins
period, especially because Jenkins sought to develop
his intellectual-disability claim promptly after Atkins
was decided. See Pet. App. 40a-41a (Wilson, J.,
dissenting).
Contrary to the approach taken by the Eleventh
Circuit, this Court has made clear that courts
adjudicating Atkins claims must take into account
the context of how the available record was
developed.
See Brumfield, 576 U.S. at 321-22.
Petitioners may be able to investigate, support, and
prove claims of intellectual disability that they would
not have had reason to develop or introduce before
Atkins put their intellectual disability at issue. See
id.
Indeed, even beyond allowing for the opportunity to
introduce such evidence, a post-Atkins hearing is
important for the additional reason that it allows
judicial evaluation of an Atkins claim to be properly
informed by clinical judgment.
By contrast, at
Jenkins’s post-conviction hearing, Dr. Kirkland
testified, for example, that he did not look to
“integrat[e] social and adaptive behavior” with
Jenkins’s IQ score and other evidence of his cognitive

18
functioning.” Vol. 22 TR.671. In other words, he
specifically did not perform the “conjunctive and
interrelated assessment” of intellectual functioning
and adaptive deficits that this Court has recognized
is essential to assessing an intellectual-disability
claim. Hall, 572 U.S. at 723.
The Eleventh Circuit’s denial of an evidentiary
hearing or other relief ran afoul of longstanding
principles for assessing Atkins claims in other ways
as well.
For example, the court’s analysis of
Jenkins’s adaptive functioning assumed he has a
substantial deficit in functional academics, but
otherwise focused on various perceived strengths as
excluding a potential diagnosis of intellectual
disability. See Pet. App. 30a-31a. For example, the
court rejected Jenkins’s claimed deficits “in the areas
of communication, self-care, community use, and selfdirection” based on “the facts of the crime,” id. at 30a,
even though legal precedent and clinical literature
repudiate that analysis. See Brumfield, 576 U.S. at
320 (rejecting argument that purported adaptive
strengths demonstrated in the facts of the crime
negated the need for an evidentiary hearing);
Holladay v. Allen, 555 F.3d 1346, 1363 (11th Cir.
2009) (“Individuals with mental retardation have
strengths and weaknesses, like all individuals. . . .
Dr. Ackerson’s predominant focus on Holladay’s
actions surrounding the crime suggests that she did
not recognize this.”); AAIDD, User’s Guide to
Accompany the 11th Edition of Intellectual Disability:
Definition, Classification, and Systems of Supports 20
(2012) (“The diagnosis of [intellectual disability] is
not based on the person’s ‘street smarts,’ behavior in
jail or prison, or ‘criminal adaptive functioning.’”).

19
Remarkably, the Eleventh Circuit’s decision
acknowledged that the record “contains evidence of
Jenkins’s childhood academic and social deficits”—
including “serious academic deficits and some
intellectual and adaptive deficits”—but disregarded
this evidence based on an unsupported legal
determination that “Jenkins’s childhood is not
directly relevant to our consideration of his present
limitations.” Pet. App. 31a. That reasoning directly
contravenes legal authority and clinical standards,
which do not distinguish in any such way between
childhood and adulthood when assessing adaptive
deficits. In fact, evidence from the developmental
period is highly relevant to whether a person has
adaptive deficits evidencing intellectual disability,
which is a developmental disability.
See, e.g.,
Brumfield, 576 U.S. at 317-19 (relying heavily on
evidence from birth and childhood to conclude that
the record “contained sufficient evidence to raise a
question as to whether Brumfield met” the adaptivedeficits criteria, such that an evidentiary hearing
should have been conducted); Van Tran v.
Colson, 764 F.3d 594, 613-14 (6th Cir. 2014)
(remanding for a new evidentiary hearing because
the state court erroneously discounted evidence of
adaptive impairments during the developmental
period and erroneously relied on the absence of any
test of intellectual functioning before the age of 18);
DSM-5 at 37; AAIDD Manual at 94-96. The Eleventh
Circuit’s disregard of childhood adaptive-deficit
evidence is especially significant here, both because
Jenkins was only 21 years old at the time of his crime
and because of the court’s acknowledgment that the
disregarded evidence reveals deficits in at least two
areas of adaptive functioning. See Pet. App. 31a.

20
*

*

*

Longstanding legal and scientific principles support
the common-sense proposition that a death row
inmate with an Atkins claim should have an
opportunity to develop that claim on an evidentiary
record suited to that purpose. Mark Allen Jenkins
has never had that opportunity. And even though he
has been denied that basic procedural right,
substantial evidence supports the possibility that he
has intellectual disability and compels the conclusion
that he should have an evidentiary hearing. Unless
this Court intervenes, there is the very real risk that
a person with intellectual disability will be put to
death without ever having had a proper chance to
prove that his execution constitutes cruel and
unusual punishment under the Eighth Amendment.
This Court’s review of the decision below is
necessary and warranted, including because the
Eleventh Circuit’s application of its outlier habeas
approach was indispensable to a decision that risks
the execution of a person who, if finally given the
opportunity, may be able to show that his execution
would be unconstitutional.

21
CONCLUSION
For the foregoing reasons, amici respectfully
submit that the Court should grant the petition for a
writ of certiorari.
March 1, 2021

Respectfully submitted,
COUNSEL FOR AMICI CURIAE

MARK R. YOHALEM
Munger, Tolles & Olson LLP
350 South Grand Avenue
50th Floor
Los Angeles, CA 90071
(213) 683-9100
Mark.Yohalem@mto.com

BRENDAN B. GANTS
Counsel of Record
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW
Suite 500E
Washington, D.C. 20001
(202) 220-1100
Brendan.Gants@mto.com

